No.

IN THE
SUPREME COURT OF THE UNITED STATES

i

In re, Jimmy Wren, Petitioner.

PROOF OF SERVICE
I, Jimmy Wren, Pro se, do swear or declare that on this date, August

.

2020, as required by Supreme Court Rule 29, I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT
OF PROHIBITION AND MANDAMUS on the party in this case, by depositing the
same to the office of the Mississippi Attorney General, with the proper first class
prepaid postage affixed thereon and addressed to: Mr. Jim Hood, Mississippi
Attorney General at P.O. Box 220, Jackson. MS 39205; and The Office of the

RECEIVED
16

SEP - 8 2020
0FFICE OF THE OLERK
SUPREME COURT. U.S.

‘t

Solicitor General at 950 Pennsylvania Ave., NW, Washington, DC 20530 on the
above date.
^0605)

jimmy Wren, #66051, Prose
30 C Building B Zone bed #131
Mississippi State Penitentiary
Parch man, MS 38738-0000

17

